fan

C@OCKLE

: E-Mail Address:
Le ga | Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-6786
ERICA YVONNE SHEPPARD,
Petitioner,
v.

BOBBY LUMPKIN, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the AMICUS CURIAE BRIEF
OF THE CAPITAL PUNISHMENT CENTER AT THE UNIVERSITY OF TEXAS SCHOOL OF
LAW IN SUPPORT OF THE PETITIONER in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 5036 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of February, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

y GENERAL fern anmness of Nebraska & a 4 4,
RENEE J. GOSS ¢ derabreaue (

fern anmness September 5, 2023

 

 

Notary Public Affiant 40614
